No. 20-216

INTHE

&uprtmt Court of tbt Wnittb &tattf
PRIANKA BOSE, PETITIONER

v.
.RHODES COLLEGE AND ROBERTO DE LA SALUD BEA,
RESPONDENTS.

ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

BRIEF FOR RESPONDENT RHODES COLLEGE IN
OPPOSITION

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.l(h), I certify that the document contains
5,946 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.l(d).
I declare under penalty of perjury that the foregoing is true and correct.

Executed on November 25, 2020.

Colin Casey ogan
Wilson-Epes Printing Co., Inc.

